                                     SOCIAL SECURITY

MEMORANDUM

Date:   July 28, 2010                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Contractors’Reporting of Jobs Created Using American Recovery and Reinvestment
        Act Dollars (A-15-10-21096)


        The attached final report presents the results of our review. Our objectives were to
        verify the number of jobs reported as created or retained by Social Security
        Administration contractors who received American Recovery and Reinvestment Act of
        2009 awards as of the quarters ended September 30, 2009 and December 31, 2009.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
     QUICK RESPONSE
      EVALUATION


Contractors’ Reporting of Jobs Created
   Using American Recovery and
      Reinvestment Act Dollars
             A-15-10-21096




              August 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro mo te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o mm e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rmin e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o mm e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve me n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e mp lo ye e d e ve lo p me n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                            Background
OBJECTIVE

Our objective was to verify the number of jobs reported as created or retained by Social
Security Administration (SSA) contractors who received American Recovery and
Reinvestment Act of 2009 (Recovery Act) awards as of the quarters ended
September 30, 2009 and December 31, 2009.

BACKGROUND

On February 17, 2009, the Recovery Act was signed into law. 1 The Recovery Act was
designed to save and create jobs as well as cushion the economic downturn and make
crucial public investments.2 The Recovery Act’s immediate goals were to create new
jobs and save existing jobs, spur economic activity and invest in long-term growth, and
foster unprecedented levels of accountability and transparency in government
spending.3

The Recovery Act oversight requirements call for any recipient of Recovery Act funds
directly from a Federal agency to submit a report to FederalReporting.gov not later than
10 days after the end of each calendar quarter. The information in the report is required
to include, among other things, (1) the total amount of recovery funds invoiced, and
(2) a narrative description of the employment impact of work funded by the Recovery
Act, including an estimate of the number of jobs created and the number of jobs
retained by the prime contractor, in the United States and outlying areas.4

Several Office of Management and Budget (OMB) memorandums, the Federal
Acquisition Regulation (FAR), and Frequently Asked Questions (FAQ) at
FederalReporting.gov provide guidance to Federal agencies and contractors for
calculating the number of jobs created or retained and to Federal agencies to effectively
review the quality of data submitted by contractors. The guidance is outlined below.




1
    Pub. L. No. 111-5.
2
 Executive Office of The President, Council of Economic Advisers, Estimates of Job Creation from the
American Recovery and Reinvestment Act of 2009, May 2009.
3
    http://www.recovery.gov/About/Pages/The_Act.aspx
4
  48 C.F.R. 52.204-11 (c) through (d)(7). These requirements, among others set forth in 48 C.F.R.
52.204-11, are to be included in all solicitations and contracts funded in whole or in part with Recovery
Act funds, except classified solicitations and contracts. 48 C.F.R. 4.1502. 48 C.F.R. Subpart 4.15
implements the recipient reporting requirements set forth in Section 1512(c) of the Recovery Act.


Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                                   2
•         OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of
          Funds Pursuant to the American Recovery and Reinvestment Act of 2009 transmits
          Government-wide guidance for Federal agencies carrying out the reporting
          requirements included in section 1512 of the Recovery Act. Although this
          memorandum does not apply to Federal contracts, OMB has provided guidance for
          calculating the jobs created or retained by Federal contractors via FAQs at their
          Website.5 Additionally, relevant guidance for Federal contractors is provided in FAR
          clause 52.204-11.

•         FAR 52.204-11, American Recovery and Reinvestment Act - Reporting
          Requirements requires that Federal contractors report an estimate of the jobs
          directly created and jobs retained in the United States and outlying areas.6 The
          Department of Defense, General Services Administration (GSA), and National
          Aeronautics and Space Administration jointly issue the FAR for use by executive
          agencies in acquiring goods and services.

•         Recovery FAQs for Federal Contractors on Reporting - Reporting/Data Element
          FAQs #15 (as of September 30, 2009) gave preliminary guidance to the prime
          Federal contractor to determine the "Number of Jobs" to report on
          FederalReporting.gov. The FAQs stated that jobs should be calculated based on
          full-time equivalent positions (FTE) using cumulative Recovery Act hours worked
          divided by cumulative hours in a full-time schedule. This FAQ can be found at
          OMB’s Website, but was revised as of December 31, 2009.7

•         OMB Memorandum M-10-08, Updated Guidance on the American Recovery and
          Reinvestment Act - Data Quality, Non-Reporting Recipients, and Reporting of Job
          Estimates requires that Federal agencies establish a data quality review plan that
          articulates their data quality review process to, at a minimum, focus on significant
          reporting errors and material omissions,8 such as those related to the federal
          amount of the award, federal award number, recipient name, and number of jobs
          created or retained. The new guidance also imparts important simplifications to the
          manner in which job estimates are calculated and reported. The guidance states
          that recipients will no longer be required to make a subjective judgment on whether
          jobs were created or retained as a result of the Recovery Act. OMB states that,
          instead, recipients will more easily and objectively report on jobs funded with
          Recovery Act dollars.9



5
    http://www.whitehouse.gov/omb/recovery_faqs_contractors/
6
    48 C.F.R. § 52.204-11(d)(7)(ii).
7
    Id.
8
    OMB, M-10-08, Part 1 § 3.
9
    OMB, M-10-08 at page 1-2.


Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                        3
•    Recovery FAQs for Federal Contractors on Reporting – Reporting/Data Element
     FAQs #15 (as of December 31, 2009) modified the method of calculating jobs to no
     longer use cumulative figures for hours worked and hours in a full-time schedule to
     determine the FTEs. Rather, the calculation of jobs is now based on hours worked
     in one quarter divided by the hours in a full-time schedule for one quarter of the year.

The Government Accountability Office’s (GAO) November 2009 report, Recipient
Reported Jobs Data Provide Some Insight into Use of Recovery Act Funding, but Data
Quality and Reporting Issues Need Attention,10 examined the reporting of jobs created
or retained by Federal agencies. GAO’s analyses of recipient data from Recovery.gov
indicated there were a range of significant reporting and quality issues that needed to
be addressed. Specifically, GAO noted issues in the areas of data entry, quality review,
and FTE calculation. GAO noted that FTE calculations were reported inconsistently
even though significant guidance and training was provided by OMB and Federal
agencies.




10
 GAO, Recipient Reported Jobs Data Provide Some Insight into Use of Recovery Act Funding, but Data
Quality and Reporting Issues Need Attention, November 2009, pages 1, 6, and 8-10.


Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                        4
                                                          Results of Review
According to SSA, 15 contractors provided SSA goods and/or services funded with
Recovery Act dollars as of December 31, 2009.11 Based on our verification of the
number of jobs reported as created or retained by nine contractors who received SSA
Recovery Act dollars, we determined eight of the nine contractors reported jobs created
or retained in a manner inconsistent with OMB guidance. Contractors’ errors resulted
from their misinterpretation of OMB guidance. SSA reviews contractors’ job creation
reports, and its quality review procedures comply with OMB standards. However,
SSA’s quality reviews are not designed to detect, and did not detect, the specific types
of errors we found during our detailed study.

Inconsistent Reporting

To accomplish our objective, we requested and obtained methodology and supporting
documentation from six SSA contractors who reported jobs created as of the quarter
ended September 30, 2009. We also requested the same documentation from three
contractors who did not report any jobs created or retained during that period. We
reviewed jobs data for the nine contractors and determined that eight had incorrectly
calculated the number of jobs reported. Additionally, we looked at documentation for
the jobs data reported for those same nine contractors for the quarter ended
December 31, 2009 and found five of the nine incorrectly reported jobs created or
retained for that period.

OMB’s guidance for calculating the “Number of Jobs” is based on converting full-time,
part-time, or temporary jobs into fractional FTEs.12 For the quarter ended
September 30, 2009, six SSA contractors reported an aggregate of 23.49 jobs created
or retained. For the quarter ended December 31, 2009, five SSA contractors reported
an aggregate of 10.41 jobs created. The results of our review are reflected in Table 1.




11
   Of the 15, we reviewed jobs data reported as created or retained for 14 of the contractors on
FederalReporting.gov. We reviewed the jobs data for one contractor on Recovery.gov. We were unable
to access contractor Jacobs Facilities Inc. (Jacobs) on FederalReporting.gov because, while the contract
with Jacobs is funded by SSA, it is managed by GSA. While the accuracy of the Recovery Act reporting
for this contract is GSA’s responsibility, not SSA’s, we included Jacobs in the scope of our testing
because the contractor is funded with SSA Recovery Act dollars.
12
     See APPENDIX C – Frequently Asked Questions – Calculation of FTE at FederalReporting.gov.


Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                              5
                                                 Table 1

                                                                       Jobs Created
                           Jobs Created Per
                                                                      Per Contractor
                           Contractor as of          Auditor                                  Auditor
  Contractor Name                                                          as of
                            September 30,          Recalculation                            Recalculation
                                                                      December 31,
                                 2009
                                                                           2009
AT&T CORP.                         0.06                 0.33               0.12                  0.00
                                                                       Reporting Not
                                                                        Applicable -
FAX PLUS                           1.00                 0.00             Contract                0.00
                                                                        Completed
HEWLETT-PACKARD                    0.00                 0.00                 0.00                0.00
IBM                               16.68                 0.23                 3.26                1.82
JACOBS FACILITIES
                                   4.99                 4.81                 5.79                6.45
INC.*
                                                                       Reporting Not
                                                                        Applicable -
NORTEL                             0.75                 2.95             Contract                0.00
                                                                        Completed
ORACLE USA, INC.                   0.00                 5.09                 1.13                1.13
STRATEGIC E-
                                   0.01                 0.12                 0.11                0.33
BUSINESS
YORK TELECOM                       0.00                 0.05                 0.00                1.71
TOTAL                             23.49                 13.58               10.41               11.44
 *Note: The contract with Jacobs Facilities Inc. is funded by SSA, but is managed by GSA.

 The contractors’ inconsistent interpretations of OMB guidance caused differing results
 for both reporting periods. For example, International Business Machines (IBM)
 reported 16.68 and 3.26 jobs created and retained for quarters ended
 September 30, and December 31, 2009, respectively. Based on the supporting
 documentation provided, IBM employees worked 119 and 948.85 hours on Recovery
 Act work in the quarters ended September 30 and December 31, 2009, respectively.
 Therefore, we determined the FTEs related to the hours worked for quarters ended
 September 30, and December 31, 2009, instead, were 0.23 and 1.82, respectively. In
 the September 30, 2009 reporting period, the disparity in the calculation of jobs created
 or retained was due to IBM using an algorithm 13 to estimate jobs related to commercial-
 off-the-shelf (COTS) products sold to SSA. IBM did not provide support for actual hours
 worked related to the COTS products as Recovery Act guidance required. OMB
 requires that Federal contractors use actual hours worked by employees to calculate

 13
   IBM's algorithm equaled their total U.S. revenue for 2008 divided by their total number of U.S.
 employees for 2008, resulting in revenue per employee. Then the SSA Recovery Act invoiced
 contract amount was divided by the calculated revenue per employee figure to determine the jobs
 retained for the COTS items.


 Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                              6
FTEs.14 The guidance also indicates that Federal contractors should not attempt to
estimate indirect or induced jobs. To provide another example, SSA contractor York
Telecom reported no FTEs for quarters ended September 30, and December 31, 2009.
However, York Telecom employees worked 18.25 hours in the quarter ended
September 30, 2009 and 896 hours in quarter ended December 31, 2009 on Recovery
Act contracts for SSA. Therefore, we determined the FTEs related to the hours worked
for the quarters ended September 30, and December 31, 2009 were 0.05 and 1.71,
respectively.

Overall, the inconsistent calculation and reporting of FTEs by all the contractors we
reviewed resulted in an aggregate over-reporting of 9.91 FTEs for the quarter ended
September 30, 2009. For the quarter ended December 31, 2009, an aggregate under-
reporting of 1.03 FTEs occurred. Based on our analysis of contractors’ calculations of
FTEs, it appears the contractors made a good faith effort to ensure complete and
accurate reporting. Through our analyses and discussions with the contractors, it
appears that the inconsistent reporting was due to misinterpretations of OMB guidance.
All the contractors have concurred with our re-calculations.

Errors Not Detected by Quality Review

OAG’s quality review process was not designed to detect the contractors’ reporting
errors we found. Although consistent with OMB’s guidance to federal agencies, OAG’s
quality review process was not designed to monitor jobs reported as created or retained
to an extent where supporting documentation is obtained from contractors to validate
information posted to FederalReporting.gov. OMB Memorandum M-10-08, Updated
Guidance on the American Recovery and Reinvestment Act – Data Quality, Non-
Reporting Recipients, and Reporting of Job Estimates, requires that Federal agencies
establish data quality plans that articulate their data quality review process to, at a
minimum, focus on significant reporting errors and material omissions. OAG
implemented procedures requiring that contracting officers review contractor reports at
FederalReporting.gov for consistency with award information, significant errors, and
material omissions. Contracting officers review data posted to FederalReporting.gov for
“significant errors,”15 that is, data that do not appear to be accurate. OAG’s procedures
for detecting significant errors are not meant to require a “major research effort.” 16
Rather, OAG reviews seek to identify data that are not logical when compared to other




14
 Recovery FAQs for Federal Contractors on Reporting – Reporting/Data Element FAQs #15 (as of
December 31, 2009).
15
  OAG Flash Notice, February 17, 2010, defines “significant errors” as data that do not appear to be
accurate. For example, recipient names that do not match what SSA has recorded in its management
systems.
16
     OAG Flash Notice, February 17, 2010, p. 11.


Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                              7
data and/or the contract award. 17 The data fields that are of major concern for
significant errors are Federal amount of the award, Federal award number, recipient
name, and number of jobs created or retained.18 Contracting officers should continue
their communication with Recovery Act contractors emphasizing that “jobs created or
retained” are to be reported as hours worked and paid for with Recovery Act funds,
unless the guidance is modified to require otherwise. Additionally, since OAG has been
made aware of the contractors’ reporting problems we discovered related to jobs
created or retained, OAG should address these issues by enhancing its guidance
issued to Recovery Act contractors.19 This should help ensure Recovery Act
contractors understand OMB reporting requirements with attention to reporting jobs
created or retained. Finally, given the number of reporting errors we discovered, OAG
should consider periodically validating the jobs reported by Recovery Act contractors.

After we shared our findings with OAG, they took action to contact the contractors
whose FTEs were over- or understated. OAG requested the contractors change the
“Number of Jobs” as reported in FederalReporting.gov for the reporting period ended
December 31, 2009 to what we recalculated. The contractors were also informed that
they cannot change the “Number of Jobs” submitted to FederalReporting.gov for the
reporting period ended September 30, 2009. In the future, the Recovery and
Accountability Transparency Board will determine the best approach for correcting past
reports and that information will be communicated to contractors.




17
  Id. According to OAG’s Flash Notice, an example of a “significant error” would include obvious errors,
such as a contractor who reports $1,000,000 in invoices on a $100,000 award. Other examples would be
a contractor incorrectly selecting “fully complete” to describe an incomplete project; or the contractor
reports the number of jobs created and retained cumulatively as 100,000, yet the contract
award/obligation amount was for a relatively small dollar amount, such as $100,000.

18
 OMB, M-10-08, Updated guidance on the American Recovery and Reinvestment Act – Data Quality,
Non-Reporting, and Reporting of Job Estimates, p. 4.

19
   In our October 2009 report, American Recovery and Reinvestment Act of 2009 Data Quality Reviews
(A-15-10-21045), SSA stated that if OAG reviews the reports and finds common errors, it will address the
issue.


Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                              8
                                      Matters for Consideration
Most of the SSA contractors we reviewed reported jobs created or retained in a manner
inconsistent with OMB guidance. Differing interpretations of the OMB guidance for job
count calculations appeared to be the reason for the inconsistencies. OAG’s quality
review process, although consistent with OMB’s guidance to federal agencies, is not
designed to monitor jobs reported as created or retained to an extent where supporting
documentation is obtained from contractors to validate information posted to
FederalReporting.gov. Therefore, it is unlikely that OAG would have detected the
reporting inconsistencies we identified.

Contracting officers should continue their communication with Recovery Act contractors
emphasizing that “jobs created or retained” are to be reported as hours worked and paid
for with Recovery Act funds, unless the guidance is modified to require otherwise. In
light of the 15 new Health Information Technology awards20 SSA made in
February 2010 and the systemic reporting problems we discovered, OAG should
enhance guidance issued to Recovery Act contractors to ensure they understand OMB
reporting requirements with attention to reporting jobs created or retained. Finally,
given the number of reporting errors we discovered, OAG should consider periodically
validating the jobs reported by Recovery Act contractors.




20
  Health Information Technology awards will provide electronic medical records to the Agency through
the Nationwide Health Information Network.


Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                              9
                                           Appendices
APPENDIX A - Acronyms
APPENDIX B - Scope and Methodology
APPENDIX C - OIG Contacts and Staff Acknowledgments




Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)
                                                                            Appendix A

Acronyms
    CY                     Calendar Year

    FAR                    Federal Acquisition Regulation

    FAQ                    Frequently Asked Question

    FTE                    Full-Time Equivalent

    GAO                    Government Accountability Office

    GDP                    Gross Domestic Product

    GSA                    General Services Administration

    OAG                    Office of Acquisition and Grants

    OIG                    Office of the Inspector General

    OMB                    Office of Management and Budget

    Recovery Act           American Recovery and Reinvestment Act of 2009

    SSA                    Social Security Administration




Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)
                                                                            Appendix B

Scope and Methodology
Our objective was to verify the number of jobs reported as created or retained by the
recipients of American Recovery and Reinvestment Act of 2009 (Recovery Act) awards
as of the quarters ended September 30, 2009 and December 31, 2009. We
accomplished our objective in three steps. First, we determined the criteria that
provides guidance on how jobs created or retained are calculated. We determined that
the Office of Management and Budget (OMB) and Federal Acquisition Regulation (FAR)
provided guidance for Federal agencies and contractors to follow to calculate the
number of jobs created or retained and for Federal agencies to effectively review the
quality of data submitted by contractors. The guidance is outlined in the following.

•   OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of
    Funds Pursuant to the American Recovery and Reinvestment Act of 2009

•   FAR 52.204-11 American Recovery and Reinvestment Act - Reporting
    Requirements

•   Recovery FAQs for Federal Contractors on Reporting – Reporting/Data Element
    FAQs #15 (as of September 30, 2009)

•   OMB Memorandum M-10-08, Updated Guidance on the American Recovery and
    Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting of Job
    Estimates

•   Recovery FAQs for Federal Contractors on Reporting – Reporting/Data Element
    FAQs #15 (as of December 31, 2009)

Second, we requested that Recovery Act recipients who provided goods and/or services
to the Social Security Administration provide us the methodology and supporting
documentation used to calculate the number of jobs reported as created or retained on
FederalReporting.gov for the quarters ended September 30, and December 31, 2009.

Third, based on the methodology and supporting documentation provided by the
contractors, we performed a recalculation of jobs created or retained based on the
guidance provided by Recovery FAQs for Federal Contractors on Reporting –
Reporting/Data Element FAQs #15 dated September 30, 2009 and December 31, 2009.
These FAQs give guidance to the prime Federal contractor to determine the "Number of
Jobs" that will be reported on FederalReporting.gov. Full-time equivalents (FTE) are
calculated using Recovery Act hours worked divided by hours in a full-time schedule. In
addition to this, we followed OMB Memorandums M-10-08 and M-09-21. The two FAQs
required two different methods to calculate FTEs.



Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)           B-1
FAQs at September 30, 2009

For hours worked in the quarter ended September 30, 2009, OMB Memorandum
M-09-21 and FAQs at September 30, 2009 required that FTEs be calculated
cumulatively; thus, cumulative Recovery Act hours worked were divided by cumulative
hours in a full-time schedule. See an illustration of the cumulative method in Table B-1.

                                         Table B-1


              Period                2nd Qtr    3rd Qtr   4th Qtr   1st Qtr   2nd Qtr 3rd Qtr

 Full-Time Schedule                     520      1,040     1,560     2,080     2,600   3,120

 Full-Time Employee 1                   520      1,040     1,560     2,080     2,600   3,120

 Full-Time Employee 2                   520      1,040     1,560     2,080     2,600   3,120

 Part-Time Employee (half time)         260        520       780     1,040     1,300   1,560

 Temporary Employee (650 hours)            0         0       130      390       650      650

 Total Hours Worked                   1,300      2,600     4,030     5,590     7,150   8,450

 Cumulative Quarterly FTE
                                        2.50      2.50      2.58      2.69      2.75    2.71
 Reported




Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                 B-2
FAQs at December 31, 2009

For hours worked in the quarter ended December 31, 2009, OMB Memorandum
M-10-08 and FAQs at December 31, 2009 required that FTEs be calculated on a non-
cumulative basis; thus, non-cumulative Recovery Act hours worked are divided by non-
cumulative hours in a full-time schedule. See Table B-2.

                                              Table B-2

                Period                 4th Qtr    1st Qtr       2nd Qtr    3rd Qtr    4th Qtr    1st Qtr

Full-Time Schedule (denominator)            520        520          520        520        520        520
Full-Time Employee 1                        520        520          520        520        520        520
Full-Time Employee 2                        520        520          520        520        520        520
Half-Time Employee (half time)              260        260          260        260        260        260
Temporary Employee (340 hours)                0             0       130        130         80              0
Total Hours Worked (numerator)            1,300       1,300       1,430       1,430     1,380      1,300
"Number of Jobs" Reported by
Federal Contractor in
                                           2.50        2.50         2.75       2.75       2.65       2.50
FederalReporting.gov by
Reporting Quarter


According to SSA, 15 contractors provided SSA goods and/or services funded with
Recovery Act dollars as of December 31, 2009.1 To accomplish our objective, we
requested and obtained methodology and supporting documentation from six SSA
contractors who reported jobs created as of the quarter ended September 30, 2009.
We also requested the same documentation from three contractors who did not report
any jobs created or retained during that period. Additionally, we reviewed
documentation for the jobs data reported for those same nine contractors for the quarter
ended December 31, 2009. Due to the restrictions of the Paperwork Reduction Act,2
we limited our requests for supporting documentation concerning the number of jobs
created or retained to 9 contractors. This Act limits identical requests to less than
10 without obtaining prior approval from OMB.




1
  Of the 15, we reviewed jobs data reported as created or retained for 14 of the contractors on
FederalReporting.gov. We reviewed the jobs data for one contractor on Recovery.gov. We were unable
to access contractor Jacobs Facilities Inc. (Jacobs) on FederalReporting.gov because, while the contract
with Jacobs is funded by SSA, it is managed by GSA. While the accuracy of the Recovery Act reporting
for this contract is GSA’s responsibility, not SSA’s, we included Jacobs in the scope of our testing
because the contractor is funded with SSA Recovery Act dollars.
2
    Paperwork Reduction Act, 44 U.S.C. 3501 et seq.


Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)                             B-3
We performed our review in Baltimore, Maryland, from January to March 2010. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.




Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)          B-4
                                                                            Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Deborah Kinsey, Audit Manager

Acknowledgments

In addition to those named above:

   Ronald Anderson, Auditor-In-Charge

   Jackie Patel, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-21096.




Contractors’ Reporting of Jobs Created Using ARRA Dollars (A-15-10-21096)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                         Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
